©strict of Columbia
Court of Appeal*
No. 19-CO-952

E D L E R
JUNE 15 2020
DISTRICT OF COLUMBIA
COURT OF APPEALS

CHARLES J. JORDAN,
Appellant,
v.

2005 FEL 3698

UNITED STATES,
Appellee.
BEFORE:

Glickman and Thompson, Associate Judges, and Nebeker, Senior
Judge.
JUDGMENT

On consideration of appellee’s motion for summary affirmance,, the
opposition thereto; appellant’s motion for release to home confinement pending
appeal and supplement thereto; appellant’s brief and limited appendix; and the
record on appeal; it is
ORDERED that appellee’s motion for summary affirmance is granted. See
Watson v. United States, 73 A.3d 130 (D.C. 2013); Oliver T. Carr Mgmt., Inc. v.
Natl Delicatessen, Inc., 397 A.2d 914, 915 (D.C. 1979). Appellant’s claim that the
perceived defect in grand jury proceedings deprived the trial court of subject matter
.jurisdiction is without support. Here, dreimLC-aurt^orrect^
existed for appellant to have challenged the setotion_qQhe_jndiy^^
"jurors. InitiaflfrSupe^Ct’ Crim. R. 6 specifically limits grand jury attendees to
include “the attorneys for the government, the witness being questioned,^interpreters
when needed, and a court reporter or an operator of a recording device.” Although
appellant is correct-that he may raise challengesjojndjvidual grandjmgm, sue
dwllenges^arespecifically limited to the grand juror’s legal qualifications, namely
the individual’s “citizenship, residence, age, health, character, and ability t0 read,
write, speak and understand the English language.” United States v. Knowles 147 F.
' Supp. 19, 20-21 (D.D.C. 1957). To the extent appellant contends he should have
been permitted to raise a challenge to the grand jurors ’ legal qualifications m person,
“[nlo provision is made for peremptory challenges of grand jurors and no sue
challenges are permitted. Likewise no voir dire examination exists in respect to

No. 19-CO-952
grand jurors.” Id. at 20. We subsequently adopted this holding in Reed v. United
States, 383 A.2d 316,322 (D.C. 1978). Finding no due process violation in the grand
jury selection process, the Superior Court had subject matter jurisdiction over the
charged offenses. See D.C. Code § 11-923 (2012 Repl.) ( The Superior Court has
jurisdiction over all criminal cases pending in the District of Columbia. ), Gorbey
v. United States, 54 A.3d 668, 706 (D.C. 2012) (“[T]he Superior Court has
jurisdiction over cases involving violations of the D.C. Code.”) (citation omitted);
Adair v. United States, 391 A.2d 288, 290 (D.C. 1978) (“[A]s the party asserting
lack of jurisdiction, [appellant] bears the burden of presenting the facts that would
establish that lack.”) (citation omitted). It is
FURTHER ORDERED that appellant’s motion for release to home
confinement pending appeal is denied as moot. It is
FURTHER ORDERED and ADJUDGED that the order on appeal is affirmed.

ENTERED BY DIRECTION OF THE COURT:

i a.

//

JULIO aVcastillo
Clerk of the Court

Copies e-served:

Copy mailed:

Honorable Julie H. Becker

Charles J. Jordan
FR #70023-007
USP McCreary
P.O. Box 3000
Pine Knot, KY 42635

Director, Criminal Division
Elizabeth Trosman, Esquire
Assistant United States Attorney
cml

\
\

Piled
D.C. Superior Court
09/24/2019 14:43PM
Clerk of the Court

SUPERIOR COURT FOR THE DISTRICT OF COLUMBIA
CRIMINAL DIVISION
UNITED STATES OF AMERICA
Case No. 2005 FEL 003698

Plaintiff,
v.
CHARLES JORDAN,
Defendant.

ORDER DENYING DEFENDANT’S MOTION TO CHALLENGE JURISDICTION.
VACATE JUDGMENT. AND DISMISS AND FOR IMMEDIATE RELEASE
i.

Pending before the Court Is Defendant Charles Jordan’s “Motion to Challenge the
Jurisdiction and Motion to Vacate Judgment and Motion to Dismiss and Motion to Reverse &
Dismiss Indictment for Fed. R. Crim. P. 6 Violations & Lack of Jurisdiction and Motion to
Dismiss pursuant to Rule 60(b)(6) and Motion to Dismiss pursuant to Rule 6(b)(2) and Code
§ 11-1910 and Motion for Immediate Release,” filed June 5, 2019. In his motion, Defendant
contends that the court lacked jurisdiction to try his case and convict him because he was not
brought to attend the grand jury selection. For the reasons set forth below, the Defendant’s
motion is denied.
On March 22, 2006, a grand jury returned a five-count indictment against Defendant in
connection with a homicide that took place in June 2005. On December 8, 2006, a jury found
Defendant guilty of first-degree murder while armed, possession of a firearm during a crime of
violence, and carrying a pistol without a license. Defendant appealed, and the Court of Appeals
affirmed the irial court’s judgment.

Defendant subsequently filed a motion to vacate his

conviction pursuant to D.C. Code § 23-110, alleging ineffective assistance of counsel. The trial

1

Exhibit 4

court denied that motion on August 21, 2017, and the Court of Appeals affirmed on April 8,
2019.
Two months later, Defendant filed this motion. For the first time, he alleges that his
indictment was defective because he “was not brought to court to attend at the selection of the
grand jury, in violation of due process of law.” Def.’s Mot. at 4. He also contends that the
process violated his rights because “there is no evidence that the indictment in the above
captioned case was voted on in open court, nor is there evidence that after presentment, the
indictment was drafted and resubmitted to the grand jury for approval.” Id. at 6.
For several reasons, Defendant’s motion lacks merit. First, contrary to his claim, nothing
in either the federal or Superior Court grand jury rule entitles a defendant to be present at the
grand jury proceedings. See SCR-Crim. 6(d); Fed. R. Crim. Pro. 6(d). The language Defendant
quotes on page 4 of his motion - “Defendants in custody shall be brought to court to attend at the
selection of the grand jury” - comes not from the rule but from the Advisory Committee Notes to
Rule 6 of the federal rules. The full comment, contained in the 1944 notes, reads as follows:
Challenges to the array and to individual jurors, although rarely invoked in
connection with the selection of grand juries, are nevertheless permitted in the
Federal courts and are continued by this rule, United States v. Gale, 109 U.S. 65,
69-70; Clawson v. United States, 114 U.S. 477; Agnew v. United States, 165 U.S.
36, 44. It is not contemplated, however, that defendants held for action of the
grand jury shall receive notice of the time and place of the impaneling of a grand
jury, or that defendants in custody shall be brought to court to attend at the
selection of the grand jury. Failure to challenge is not a waiver of any objection.
The objection may still be interposed by motion under Rule 6(b)(2).
Fed. R. Crim. Pro. 6(b) advisory committee’s note (1944) (emphasis added). This comment
undermines rather than supports Defendant’s argument.
Second, even if the grand jury process had violated the rule in some way, Defendant’s
motion is not timely. See SCR-Crim. 12(b)(3) (requiring motions alleging “an error in the grand

2

jury proceeding” to be brought before trial). “When a defendant has been found guilty of the
charges in the indictment, ‘the petit jury's verdict [has] rendered harmless any conceivable error
in the charging decision that might have flowed from the violation.”’ Chambers v. United States,
564 A.2d 26, 29 (D.C. 1989) (quoting United States v. Mechanik, 475 U.S. 66, 73 (1986)).
Moreover, Defendant’s motion does not describe any prejudice he suffered as a result of any
alleged defect in the grand jury process, and his claim that any such flaw deprived the Court of
jurisdiction is not correct.

See United States v. Williams, 341 U.S. 58, 66 (1951) (“[T]hat

the indictment is defective does not affect the jurisdiction of the trial court to determine the case
presented by the indictment.”).
Accordingly, it is this 24th day of September, 2019, hereby
ORDERED that Defendant’s Motion is DENIED.

v
Julie H. Becker
Associate Judge

Copies to:
Charles Jordan # 70023-007
Unit 5-A
United States Penitentiary McCreary
P.O. Box 3000
Pine Knot, KY 42635
Defendant

United States Attorney’s Office
Special Proceedings Division
555 Fourth Street NW
Washington, DC 20530
USADC.ECFSoecialProceedings@ttsdoi.aov

3

t

► „

v

JStetrict o( Columtua
Court of glppeate

i

~zs'
L

C

i

No. 19-CO-952
i

r

!

i

re

ifi

HB

SEP 25 2020
DISTRICT OF COLUMBIA

CHARLES J. JORDAN,
Appellant,

COURT OF APPEALS

FEL3698-05

v.
UNITED STATES,
Appellee.
BEFORE:

Blackbume-Rigsby, Chief Judge; Glickman, * Thompson, *
Easterly, and Deahl, Associate Judges; Nebeker, * Senior Judge.
ORDER

On consideration of appellant’s petition for rehearing or rehearing en banc,
and it appearing that no judge of this court has called for a vote on the petition for
rehearing en banc, it is
ORDERED by the merits division* that the petition for rehearing is denied.
It is
FURTHER ORDERED that the petition for rehearing en banc is denied.
PER CURIAM
\

Associate Judges Beckwith and McLeese did not participate in this case.

Copies to:
Honorable Julie H. Becker
Director, Criminal Division

1
f.n

No. 19-CO-952
Copies mailed to:
Charles J. Jordan
FR# 70023-007, USP McCreary
P.O. Box 3000
Pine Knot, KY 42635
Director, Criminal Division

1

de

\

}

